Evaluation of Emergency Action Plans for U.S. Mission Afghanistan (AUD-MERO-13-20)

       U.S. embassies are required to develop and maintain Emergency Action Plans (EAP),
which provide procedures for responding to emergency situations. The Department of State’s
(Department) Office of Inspector General (OIG) initiated this work under the authority of the
Inspector General Act of 1978, as amended, to determine whether U.S. Mission Afghanistan
personnel were aware of the emergency procedures contained in the EAPs, sufficient resources
were available to respond to the emergencies addressed in selected EAP annexes, and the EAPs
were up to date and included all personnel under chief of mission authority. OIG conducted this
evaluation at Embassy Kabul, Consulate Herat, and other locations across Afghanistan and at the
Bureau of Diplomatic Security (DS) in Washington, DC.

        OIG found that DS’s Emergency Planning Branch had approved Embassy Kabul’s EAP
in May 2011 and that the Embassy had made its personnel aware of the EAP and had held the
required EAP drills. However, the Embassy had not ensured that certain resources were
available for the post to respond effectively to some emergencies. For example, some emergency
shelters lacked a sufficient amount of food and water rations and medical supplies.

        These deficiencies occurred because emergency planning did not fully reflect changes to
the security environment in Afghanistan or the significant growth in staffing levels at Embassy
Kabul from 2009 through 2012. In addition, DS’s EAP approval process did not include a
requirement for DS to validate the adequacy of the Embassy-prepared EAP or ensure that
resources were available to respond to EAP-related emergencies. As a result, the risk of injury to
Embassy personnel and of the loss of sensitive documents and materials was unnecessarily
increased, as evidenced in part during the September 13, 2011, attack on the Embassy.

       OIG made nine recommendations to the Department to address the EAP deficiencies:
OIG considered seven recommendations resolved because the Department was taking action to
address those recommendations and considered two recommendations unresolved because
management needed to take further action to resolve and close those recommendations.
